  NATIONAL DRG VALIDATION STUDY:

      SHORT HOSPITALIZATIONS





                    RICHARD P. KUSSEROW
                     INSPECTOR GENERAL




OAI- 05- 88-00730
                                          MAY 1989
                                   EXECUTIVE SUMMARY


PURPOSE

This study examined short hospital stays of 1 , 2 , or 3 days to ascertin the extent of short
stays , whether short-stay patients were being admitted and discharged appropriately, and
whether the quality of care they received was adequate. This report is one in a series of
reports developed from the 
   National Diagnosis Related Group (DRG) Validation Study
underten by the Office of Inspector General (OIG).

BACKGROUND

In October 1983, a new prospective payment system for Medicare hospital stays was intro­
duced to encourage hospitals, though appropriate financial incentives, to implement
economies   ar : efficiencies to help curb escalating health care costs. Conversely, these same
financial incentives might induce some physicians and hospitals to admit patients who do not
need acute hospital care, in order to obtain payment for treatment that could have been given
on an outpatient basis. At the other extreme, needed hospita services might be withheld and
the patient discharged prematurely, thereby increasing profits while placing beneficiares at
risk.

METHODOLOGY

Short hospitalizations were identified by analyzing a random OIG sample of 7, 045 Medicare
discharges from 239 hospitals between October 1984 and March 1985. Comparsons were
made of the characteristics of short hospitaizations to those of longer stays, and to the entire
OIG sample.

FINDINGS

         Of the 7, 045 discharges reviewed, 18 percent were short hospitalizations.
         The short hospitalization subsample had a 20 percent unnecessar admssion rate.
         Short stay unnecessar admissions cost the program approximately $217 milion in
         Fiscal Year (FY) 1985.
         The DRGs identified most often as unnecessar admssions were: Cataact         Surgery
         (39), Digestive Disorders (182), Hear Failure and Shock (127), Chemotherapy (410),
         Bronchitis and Asthma (96), and Medical Back Problems (243).
         Most patients admtted unnecessarly needed qutpatient car.
         The rates of premature discharges and poor quality of car for short hospitalizations
         were reflective of the entire sample.
 RECOMMENDA TIONS

Our frndings on short stays reinforce the recommendations contained in the previous OIG
 report, National DRG Validation Study: Unnecessary Admissions to Hospitals,
 (OAI- 09- 88- 00880), which addressed the unnecessar admssions found in the entie sample.
Our previous report recommended that the Health Car Financing Admistration (HCFA) im­
prove the peer review organizations ' (PROs ) identifcation of unnecessar admssions. In
their comments to that report, HCFA agred that to achieve the best return on investment , they
shouid focus review efforts on those cases which ar the most problematic. They propose
pilot studies in several States that wil focus on short hospitalizations and DRGs that are fre­
quently unnecessar. This report on short stays provides an approach to improve identifica­
tion of unnecessar admssions. Should HCFA implement the following recommendations,
denials of unnecessar hospitalzations for the DRGs listed below should result in net program
recoupments of approximately $183 millon , based on FY 1987 data.

Based on our analysis of problematic. DRGs appearg in the unnecessar admssion study and
the short hospitalization study, we recommend that HCFA include in their proposed PRO pilot
studies:

           admission reviews of the following DRGs: Respiratory Neoplasms (82), Bone Cancer
           (239), Medical Back Problems (243), Bone Infection (244), and Enlarged Prostate
           (348); and
           admssion reviews of 1- , 2- or 3- day hospitalizations with the following DRGs: Eye
           Disorders (47), Ear, Nose and Thoat Diagnoses (73), Anal Surgery (158), Urinar Tract
           Infections (320), and Acute Adjustment Reaction (425).

Unnecessar admssion rates, per DRG, resulting frm these pilot studies and others con­
ducted by the PROs, should be calculated and the results compard to the OIG study findings.
If the results of these pilot studies verify that unnecessar admssion rates ar higher in short
hospital stays, and that scrutiny leads to a higher retur      per   medcal review resources invested
HCFA should:

           instrct all PROs to taget certain DRGs determned to give the highest retur        on
           investment of review resources, and   consider   relaxing the PRO responsibility for
           applying admssion screns or criteria to all reviewed cases; and


           requir PROs to perform random , periodc reviews of short hospitalizations (1     to 5
           days) to uncover any hospital circumvention of established PRO sampling criteria.

The HCFA responded to our drt report by indicating they would seriously consider the
DRGs suggested for inclusion in pilot projects to be developed. Their comments can be found
in appendix F of the report.
                                                                                                ................................................
                                                                                                                         .....................
                                                                                                                            .... . . . . ...   .
                                         . . . . . . .. .. .. ... ... ... .... .... .... .... .... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... .... .... .... .... .... ..... ..... ..... ..... ..
                                                                                                                                                                                                                                                                                                                                   ..
                                                                                                                                                                                                                                                                                                                                   ............. ... ..




                                                                                                                   TABLE OF CONTENTS


 EXECUTIVE SUMMARY

INTRODUCTION...................................................... 





           , Background.......................................................

                    Methodology. . . . . .

FINDINGS.




                   Hospital Characteristics                                         . . . . . . . . . .4
                   Unnecessar Admissions. . . . .                                             . . . . .4
                   Premature Discharges , Qualty of Care Concerns and Nosocomial Infections. . . .
                    Codng Errors

RECOMMENDATIONS




                   Rational. . . .

APPENDIX A - SAMPLING AND METHODOLOGY ...................... A-


                   Record Collection. . . .                                                                                                                                                                                                                                                     . . . . . . .. A-
                   Medcal Review                                                                                                                                                                                                                                      . . . . . . . . . . . . . A-
                   Statistical Analysis
                   Fiscal Projections                                                                                                                                                                                                                                      . . . . . . . . . . . . A­

APPENDIX B - HOSPITAL AND DISCHARGE CHARACTRISTICS. . .
APPENDIX C - DISCHARGE FREQUENCY BY MDC
APPENDIX D - INAPPROPRITE PROGRAM PAYMENTS, RETURN ON
             INVESTMNT AND INCREASE IN MEDICAL REVIEW
                                                     WORKOADS                                                                                                                                                                                                                                                 . . . . . D­
           - INAPPROPRIATE PROGRAM PAYMENTS PER DRG
             FOR FY 1987 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D­
APPENDIXE - DISCHARGE DESTINATIONS........ .
APPENDIX F - TH HCFA' s COMMNTS TO DRA REPORT. . . . . . . . . . . . . . F­
                                     INTRODUCTION

BACKGROUND

On October 1 , 1983, the Health Care Financing Admiistration (HCFA), the agency respon­
sible for admiistering the Medicare progr, replaced most of its hospital cost- based reim­
bursement system with the prospective payment system (PPS). Congrss mandated this
change because of the rapid increase in Medicar payments for inpatient expenses. Under the
new system, hospitas currently receive a pre-established payment for each discharge based
upon an assigned diagnosis related group (DRG). Each of the 475 DRGs results in an as­
sociated payment that represents an average cost for patients having simiar diagnoses. Some
patient hospital stays consume more services (i.e. , cost more than the payment) while others
use less. The hospita retains any surlus from stays costing less than their DRG payment and
must absorb any losses on stays consuming more services than the payment. In addition to the
DRG payment , a hospital may receive additional payment from HCFA for atypical cases
referred to as day or cost outliers. These cases are atypical with respect to a beneficiar
lengthy inpatient hospita stay or extrordinar costs incurr by the hospital while carng for
a beneficiar.

Congress assumed that a fIXed payment per discharge would encourage hospitals to reuce
waste and unnecessar services. At the same tie, the tota payments to the hospitals would
provide the same essential resources for patients as the cost- based system. While the intent of
Congress was to reduce health car costs, it was also concerned that the qualty of care not
dimiish under this new system. To protect the integrty of PPS and maintain quality of care,
Congress established peer review organizations (PROs) to monitor PPS activities.

PREVIOUS OIG STUDIES

With the advent of prospective payment, the Offce of Inspector Genera (OIG) evaluated PPS
and its potential effects on utilization and provider behavior in order to detect and prevent
program frud, abuse and   waste. In analyzing vulnerabilties that could result in " gamng " or
manipulating PPS , the OIG identifed several major concerns. Among these were " upcoding
the DRGs to obtan higher reimbursement, admtting patients not in need of acute hospital
care to maximize DRG payments, and inappropriately or prematuely discharging patients
before hospita expenditures exceeded the DRG payment. Deliberate underutilization of hospi­
tal resources and inappropriate transfers between acute care hospitals and exempt units were
also aras of concern.



Based on these concerns, OIG completed thee validation studies ofDRG 14 , Specific
Cerebrovascular Disorder Except Transient Ischemic Attack; DRG 82 , Respiratory
Neoplasms; and DRG 88, Chronic Obstrctive Pulmonar Disease. A review of PRO activity
in identifying and handling cases of inappropriate discharges and transfers was also completed
early in 1986, along with a study regarding beneficiar rights under the new payment system.
An ongoing study of hospital Medicare profits is being conducted by the OIG.
In addition , a major initiative, the National DRG Validation Stu, was underten to survey
the accuracy of DRG codng and quality of car performed by hospitals under PPS. Based on
data from this national study and additional data from other sources, severa reports have been
or wil be issued by the Inspector General regarding quality of care, as well as identied areas
of manipulation and PRO performance in monitoring PPS activities.

We have released 
           National DRG Validation Stuy: Unnecessary Admission to Hospitals
(OAI.. 09- 88- 00880). Our findings regarding unnecessar admssions in the short-stay sub-
sample reinforce the findigs in this report. The HCFA , in their response to the unnecessar
admssions report, proposed pilot studies in several States to focus on DRGs associated with
frequent unnecessar admssions and on short hospitalizations.              National DRG Validation
Study: Short Hospitalizations 
         discusses short hospital stays of I , 2 or 3 days. Our recommen­
dations recognize HCFA' s proposed pilot studies and offer an approach to improve identifica­
tion of unnecessar admssions.

OBJECTIVES

A short hospitalzation does not necessarly mean the patient received inappropriate tratment, .
was discharged too soon , or should never have been hospitaized. However, hospitals can
manipulate PPS by admtting patients who do not need acute care or prematurely discharging ­
patients stil in need of therapy or treatment. Either way, the hospita stads to gain financial­
ly by underutilzing services while receiving the same payment.


This study was conducted to ascertn the extent of short stays, whether short-stay patients
were being admtted and discharged appropriately, and whether the quality of car they
received was adequate. We also analyzed the characteristics of hospitals associated with short-
stay hospitaizations in the   National DRG Validation Study 
             sample.

METHODOLOGY

Using a two-stage cluster design , the OIG sampled 7, 045 complete medcal records from 239
hospitals stratifed by size. These cases were drawn frm hospita discharges occurrng durng
October 1984 though March 1985. The OIG contrcted with the Health Data Institute of
Lexington , Massachusetts for medical records specialists to reabstract the diagnoses, and for
physicians and nurses to assess the appropriateness of the car. A comprehensive system of
reviews and referrals veried the accuracy of this process. Furer information regarding sam­
pling and review methodology can be found in appendix A.

In assessing appropriateness of car, the patient s condition was evaluated durng thee points
in time. The first reference was upon admssion. Unnecessar adssions were identified at
this time. The second evaluation of car concerned the tratment of the patient durng his or
her hospital stay. Determnations of poor quality of care, unneeded procedures, etc., were then
made. Finally, a decision regarding the appropriateness of discharge was reached. Registered
nurses initialy screened the   medical records for              ncidents relating to the appropriateness of ad­
mission, quality of car, and appropriateness of discharge. If potential inadequacies were
found, the medical record was referred to a physician for review. If confirmed, the physician
prepared a nartive summar describing the nature of the deficiencies noted.

The reviewers were instrcted to ignore marginal problems or cases involving honest differen­
ces in medical judgment about appropriate case management and subsequent discharges.
OIG medical offcer evaluated all narative summares and quality of comments and found
them to be adequate and consistent.

For the purposes of this inspection , hospitalizations shorter than 24 hours were counted as
  day stays. For example, patients who died within 24 hours after admssion were considered
to have been hospitalized for 1 day.
                                            FINDINGS

HOSPITAL CHARACTERISTICS

FINDING:        a/The 7 045 Discharges Reviewed     18   Percent Were Short Hospitalizations.

From the original sample of 7 045 discharges, we identified a subsample of 1 254 (18 percent)
short hospitalizations of 1, 2 or 3 days.

The 1- 3 day subsample represented discharges from 237 of the 239 sampled hospitals. We
reviewed approximately 30 cases from each sampled hospital. The number of short stays iden­
tified per hospital ranged from 1 to 14. The average number of short stays in small hospitals
was 6. 1; in medium-sized hospitals, 4. 7; and in large hospitals, 5.

The geographic location of the hospital did not appear to be a signifcant factor. Geographic
representation of short-stay hospitas was similar to the overall sample.

Small , rural hospitals had a slightly higher percentage of short stays than larger, urban hospi- .
tals. Teaching status did not appear to have an effect on the numbers of short stays. More
detailed information regarng      hospita charcteristics can be    found in appendix B.


UNNECESSARY ADMISSIONS

FINDING:        Short Hospitalizations Had A Much Higher Unnecessary Admission Rate Than
                Did Hospital Stays 0/4 Days Or More.

In the 1- 3   day subsample of 1 254 hospitalizations, 252 (20 percent) were unnecessar admis­
sions. Of the remaining 5, 791    discharges, where patients were hospitalize for 4 or more
days, 488 (8 percent) were unnecessar admssions. In the enti sample of 7 045 discharges,
10 percent of the admssions were deemed by the physician reviewers to be unnecessar.

                                    UNNECESSARY ADMISSIONS

                                3 Day          4+ Day             Entire         PRO
                            Subsampfe         Subsample          Sample         Sample

           Sample                254             791               045         8 milion
           Discharges

           Unnecessary           252             488               740         206, 821
           Admissions

           Percent of
           Sample             (20. 1%)         (8.4%)          (10. 5%)         (2. 6%)
These figurs contrast with those from a non-random sample of 8 milion cases the PROs
reviewed durng a time period (July 1984 through September 1986) which included the
timefrae of the OIG sample (October 1984 through March 1985). Using different methods
and standards for identifying unnecessar admssions, the PROs denied 3 percent, or ap­
proximately 207, 00 cases, as unnecessar admissions.
FINDING:     Short Stay Unnecessary Admissions Cost The Programs Approximately $217
             Milion In Fiscal Year (FY) 1985.

Although the overall unnecessar admission rate in the entire sample is higher than the rate
reported by the PROs, comparson of the two subsamples shows that the rate for short stays
(20 percent) is substantialy higher than the rate we found for hospitaizations of 4 days or
more. This indicates that a review of short hospital stays of 1 , 2 or 3 days may result in more
unnecessar admssion determnations and subsequent progr recoupments.

We projected that hospitals received approximately $411 milion in FY 1985 for unnecessar
admssions that were 1- , 2- or 3- day hospitalizations. However, the net loss to the Medicare
program is about one- hal of this amount. Takg into consideration the cost of providing
necessar outpatient care needed by the inappropriately admtted hospital patients, we es­
timate the net program loss to be approximately $217 millon. (See appendix A for more
detail regarding these projections.

FINDING: 	   The Longer The Patients ' Stay In The Hospital , The Lower The Rate OfUnneces­
             sary Admissions.

For the enti sample, the average length of stay (LOS) was 7 days. The average LOS for un­
necessar admssions in the entie sample was 5 days. To better understand the significance of
these statistics in terms of short hospitaizations , we have grphically depicted the percent
the sample discharges falling into actual LOS categories raging from 1 day to 83 days, and
the percent of those cases that were unnecessar admssions.

As the following graph indicates, a larger percent of sampled discharges fell into the 3- , 4- , 5- or
  day category. To a lesser extent, hospitalizations of 7 , 8, 9 , and 10 days were also well repre­
sented.
                               ENTIRE SAMPLE DISCHARGES
                                    BY LENGTH OF STAY

                 PERCENT




                                                                              N= 7, 045




                                      5.                10 20 40 60
                                              DAYS

However, when the rates of unnecessar admssions are graphically depicted by actual LOS
categories, as shown in the graph below, we see a shar drop in unnecessar admssion rates fol­
lowing hospitalizations of 3 days. This downward trend generaly continues the longer the patient
stays in the hospital. For example, in the entir sample, 3- day hospitalizations had an unneces­
sar admssion rate of 21 percent , while 5- day hospitalizations had a rate of 13 percent. The un­
necessar admssion rate fell to 7 percent   for hospitalizations of 10 days.


                                UNNECESSARY ADMISSIONS
                 PERCENT           BY LENGTH OF STAY




                                              DAYS
 FINDING: The DRGs Identifed                     Most Often As Being Unnecessary Admissions Were:
             Cataract Surgery            (39),    Digestive Disorders
                                                                             (182),     Heart Failure and Shock(127),
             Chemotherapy (410), Bronchitis and Asthma 
                        (96),   and Medical Back Problems
             (243 ).

 The following table compares the 19 DRGs that represented the most frequently identied                              un­
necessar admssions found in the short-stay subsample. Catarct surgery was the procedure
identified most often as being an unnecessar hospital admssion. However, HCFA statistics in­
dicat that since the timefraes of our review, DRG 39 is no longer in the top 25 DRGs paid
in the countr. This procedur has shifted priary to outpatient settings.


                                FREQUENCY OF UNNECESSARY ADMISSIONS

                                     IN 1- 3 DAY SUBSAMPLE BY DRG



     DESCRIPTION                                           DRG          # of Unnecessary                % of Total
                                                                         Admissions in                 Unnecessary
                                                                        3 Day Subsample                Admissions



    Cataract Surgery                                                                                      21.
    Digestive Disorders                                    182
    Heart Failure & Shock                                  127                                             2.4
    Chemotherapy                                           410                                             2.4
    Bronchitis & Asthma
    Medical Back Problems                                  243

    Dizziness

    Metabolic Disorders                                    296

    Seizure & Headache

    Eye Disorders

    Ear, Nose, Throat Diagnoses

    Anal Surgery                                           157

    Anal Surgery                                           158

    Bone Infection                                         244

    Urinary Tract Infections                               320

    Urinary Tract Disorders                                325

    Enlarged Prostate                                      348

    Red Blood Cell Disorders                               395

    Acute Adjustment Reaction                              425

    Other                                                  120                                           47.




    TOTAL                                                                    252                        100.


We also analyze the rate of unnecessar admssions within each of the 19 DRGs appearng in
the above table.
           RATE OF UNNECESSARY ADMISSIONS WITHIN DRG CATEGORY IN 1-3 DAY
                                         SUBSAMPLE


    DESCRIPTION                  DRG       Total # of       # of Unnecessary       Rate of
                                          DRGs in 1-        Admissions Within   Unnecessary
                                         Day Subsample       3 Day Subsample    Admissions
                                                                                 Within DRG

   Eye Disorders
                                                                                   100.
   Cataract Surgery
                                                                                    82.
   Anal Surgery                  158                                                75.
   Acute Adjustment Reaction     425                                                75.
   Ear, Nose, Throat Diagnoses                                                      60.
   Dizziness                                                                        57.
   Bone Infection                244                                                42.
   Enlarged Prostate             348                                                42.
   Urinary Tract Infections      320                                                37.
   Urinary Tract Disorders       325                                                37.
   Medical Back Problems         243                                                35.
   Digestive Disorders
                                                                                    30.
   Anal Surgery                  157                                                27.
   Bronchitis & Asthma
                                                                                    23.
   Red Blood Cell Disorders      395                                                20. 00
   Chemotherapy                  410                                                19.
   Seizure & Headache                                                               17.
   Heart Failure & Shock         127                                                15.

   Metabolic Disorders           296
                                               14.
   Other                                     910                  120               13.

   Total                                    1254                  252


As the table on page 7 indicates, the six DRGs with the highest occurnce of unnecessary ad­
missions in the short-stay subsample were Cataract Surgery (39); Digestive Disorders (182),
Heart Faiure- and Shock (127); Chemotherapy (410); Bronchitis and Asthma (96); and
Medical Back Problems (243).

While these DRGs had the highest frequencies of unnecessar admssion , other DRGs had a
greater chance of being an unnecessar admission. For instance, as demonstrated in the above
char , DRG 47, Eye Disorders, was found to be an unnecessar admission 100 percent of the
time.

Admissions for cataract surgery, the most frequently noted unnecessar admssion , were found
to be unnecessar 83 percent of the time. Anal surgery and acute adjustment reaction were un­
necessar 75 percent of the time; followed by ear, nose, throat diagnoses (60 percent) and
dizzin ss (57 percent).
  FINDING:           Most Patients Admitted Unnecessarily Needed Outpatient Care.

 Most of the identifed patients admtted unnecessary in both the           entir    sample and the short-
 stay subsample needed medical attention , but not in an acute care setting. As the following
 graph indicates, reasons for unnecessar admssions fell into five categories. In the short-stay
 subsample, 80 percent of the unnecessar admssions should have been more appropriately
 treated in an outpatient setting. Approximately 12 percent of the unnecessarly admitted did
 not need acute care. Social admssions accounted for about 2 percent of the unnecessar ad­
 missions ider"ified in the short-stay subsample. The percentages for the entie sample were
 very similar: outpatient, 78 percent; acute car not needed, 12
                                                                      percent; and social admssions,
 4 percent.

                                        REASONS FOR UNNECESSARY ADMISSIONS
                                                       N=749

                                                                SNFIICF aprop.



                                                                    Acue cae unneeded - 11.




                                                                             No care provided - 3. 1 %




                                                                                  Socal admission - 4.




             Outpaient aprop. 77. 8"1

PREMATURE DISCHARGES, QUALITY OF CARE CONCERNS AND
NOSOCOMIAL INFECTIONS

FINDING:           The Rates Of PrematUre Discharges And Poor Quality Of Care Were             Reflective
                   Of The Entire Sample.

As previously mentioned, hospitas may increase profits by prematuely dischargig patients.

If hospitas were routinely discharging patients inappropriately, we might expet to
                                                                                   see a num­
ber of occurnces in our short-stay sample. We did not. The following char displays the
number of prematu discharges appearg in the entir sample, the short-stay subsample and
the 4+ day subsample.
                                      PREMATURE DISCHARGES




                                    3 Day             4+ Day              Entire
                                 Subsample          Subsample            Sample

       Sample                        229                 716               945*
       Size


       Premature
       Discharges

       Percent

        In 100 cases, reviewers did not commnt on whether the discharge was appropriate or premature.




The following char shows that quality of car issues were identified as often in cases of short ­
hospitalizations as in cases where the patient was hospitalized for a longer period of time.




                                           QUALITY OF CARE


                                    3 Day            4+ Day              Entire
                                Subsample          Subsample            Sample

       Sample                       254                  791               045
       Size

      Quality of
      Care                                              372               464
      Discharges

      Percent
 FINDING:           Nosocomial Infections Occurred Less Frequently In. Short Hospitalizations

 Nosocomial infections-- infections acquired by the patient while in the hospital--occured less
 frequently durg short hospitalzations. This is expected since the patients were exposed to a
 potentially infectious environment for a shorter period of time.


                                           NOSOCOMIAL INFECTIONS


                                          3 Day           4+ Day           Entire
                                        Subsample       Subsample         Sample

             Sample                        201               560             761*

             Size



             Nosocomial                                      375            397

             Infections


             Percent

             Presence or absence of 
    nosocomial infection was not commented on by reviewers in
             284 of the 7 045 cases.




CODING ERRORS

FINDING: 	         DRG Coding Errors Were Found In The Short-stay Subsamle As Often As In The
                   Entire Sample.

Under PPS, the accurcy of DRG codng is critical in determning fai                      payment.
                                                                               and accurate
Using the      International Classifcation of Diseases, 9th Revision,
                                                                  Clinical Modifcation    codes,
hospitals must list in correct sequence the appropriate diagnoses and procedurs of a patient
case. This is necessar for the fiscal intermediar to assign the corrct DRG and make ap­
propriate payment.

The short-stay subsample closely miors the enti sample in percent of codng errors found.
The effect of codng errors in both samples tends to favor the hospitals. In the entie sample
of 7, 045 discharges, 20 percent of the DRGs were changed by the reviewers. When recoded
correctly, 61 percent of the miscoded cases resulted in a lower-weighted DRG, and in 39 per­
cent of the cases the correct DRG had a higher weight. In our shott-stay subsample, 18 per­
cent (229) of the 1 254 cases were miscoded. When correctly coded, 60 percent of the 229
miscoded cases resulted in a lower-weighted DRG, and 40 percent resulted in a higher-
weighted DRG.
 Of the 237 hospitals in the short-stay subsample, 129 (54 percent) had a least 1 miscoded case.
 The average number of miscoded cases was 1. , the statistical mean and mode was 1. The fol­
 lowing char indicates the number of codng rrors resulting in a DRG change per hospital:

                   FREQUENCY OF CODING ERRORS IN 1-3 DAY SUBSAMPLE


            N umber of           Number of Hospitas by Bed Size              Total
            Codng                                                            Hospitals
            Errors	                               100- 299       300+




           TOTALS	                                                             129


As in the enti sample , codg errors of short hospital stays were found most often in small
hospitals. . Two- day hospital stays were miscoded 25 percent of the   tie, compard to a
codng error rate of 15 percent for hospitalzations of 1 and 3 days. See appendix B for addi­
tional information. The most often miscoded DRGs identified in short hospitalizations were
as follows:
                           MISCODED DRGs IN 1-3 DAY SUBSAMPLE

   DRG	        Relative         Description                      Frequency           Percent
               Weights

  140             7470        Angina Pectoris

  132             9087        Atherosclerosis

  182             6121        Digestive Disorders

                    5368      Pulmonary Edema & Resp. Failure

                    0914      Simple Pneumonia & Pleurisy

  127               0300      Heart Failure & Shock

                1 . 3386      Strokes Except Transient

                                      Ischemic Attacks

  180            8112           I. Obstruction

 294             8003         Diabetes

 296             8886         Metabolic Disorders

Other	                                                            167                 72.
Totals	                                                           229                100.
                                                  RECOMMENDATIONS

 Our previous study entitled                  National DRG Validation Stuy:   Unnecessary Admissions to
 Hospitals specifcaly addrssed unnecessar admssions found in the entie sample. Our in­
 spection of short hospitalizations contains information regarding unnecessar admissions
 found in the 1 254 discharges of the short-stay subsample. Our frndings reinforce the recom­
 mendations contained in the above- cited report on unnecessar admissions, but go further in
providing an approach to improve identification of unnecessar admssions.

We recommended in our previous report that HCFA improve the PROs ' identification of un­
necessar admssions. In their comments on that report, HCFA agreed that to achieve the best
return on investment, they should focus review efforts on those cases which are the most
problematic. They proposed pilot studies in several States that would focus on short
hospitalizations and DRGs that are frequently unnecessar. Based on our analysis of
problematic DRGs appearg in the unnecessar admssion study and the short- hospitalization
study, we recommend that HCFA include in their proposed PRO pilot studies:

         admssion reviews of the following DRGs: Respiratory Neoplasms (82), Bone Cancer
         (239), Medical Back Prblems (243), Bone Infection (244), and Enlarged Prostate
         (348); and

         admssion reviews of 1- , 2- or 3- day hospitalizations with the following DRGs: Eye
         Disorders (47), Ear Nose and Throat Diagnoses (73), Anal Surgery (158), Urinar               Tract
         Infections (320), and Acute Adjustment Reaction (425).

We believe scrutiny of these DRGs wil yield the highest retu in identifying inappropriate
progr payments, while effciently using medical review resources. Our rationale for select­
ing these DRGs appear on pages 14- 16 of the report. Alternative options regarding which
DRGs to review are also presented.

Unnecessar admssion rates, per DRG, resulting frm these pilot studies and others con­
ducted by the PROs, should be calculated and the results compard to the OIG study findings.
If the results of these pilot studies verify that unnecessar admssion rates ar higher in short
hospital stays and that scrtiny of certn DRGs yield a higher return per medcal review
resources invested, HCFA should:

        instrct all PROs to target certain DRGs determed to give the highest return on
        investment of review resources, and consider   relaxing the PROs ' responsibilty for
        applying admssion screens or criteria to all reviewed cases; and

        requir PROs to perform random , periodc reviews of short hospitalizations (1 to 5
        days) to uncover any hospital circumvention of PRO sampling criteria.
Once the hospitals become aware of which DRGs ar being scrutinize, some may seek to cir­
cumvent the screens by manipulating other DRGs and increasing the length of unnecessar
hospitalization; e. , discharging patients on the fourth or filth day of hospitaization for non-
targeted DRGs. Periodc sampling of 1- to 5- day hospitalizations wil guard against such
manipulation , paricularly since unnecessar admssions appear to drop off draticaly after
the fourth day of hospitalization.

RatiQnale For Targeting DRGs For Review

In recommending specifc DRGs to be reviewed, we focused on identifying unnecessar ad­
missions in a way to maximize recoupment of program funds. We included DRG or case
characteristics, such as length of hospita stay, number of unnecessar admssions found
durg review, and the rate or likelihoo of a DRG to be an unnecessar admssion. We also
considered the relative impact on the existing PRO workloads, in terms of minimum case
sample size for review and incrementa cost to the PRO for reviewing these cases.

The table in appendix D displays the 27 DRGs identified in our studies as being the most
problematic. Using HCFA' s FY 1987 payment statistics, and DRG unnecessar admssion
rates identifed in both the unnecessar admssion and the short-stay hospitalzation studies,
we have projected the number of discharges per DRG the PROs would be requir to review
and the estimated program dollars that could be recouped by tageting a specific DRG. We
also calculated the retur on investment (ROI), in terms of overpayment identified per claim
reviewed. (The   inappropriate payments were not adjusted to reflect the difference in cost be­
tween the hospita stay and more appropriate outpatient car, nor to reflect any waiver
provisions that might apply. ) Calculations include projections based on review of all clais
submitted in FY 1987 per DRG, and projections per DRG for hospitaizations of 1 , 2, or 3
days.

The DRGs with the highest ROIs (dollar recoupment per claim reviewed) identified in our un­
necessar admssion study are not the same DRGs identified in our short hospitaization study.
Short-stay DRGs have relatively higher ROIs because they have a grater likelihoo of being
an unnecessar admssion , while at the same tie having a smaler universe of clais to
review. Review of other DRGs may result in a larger dollar recoupment , but because the
universe of claims to review is larger, 100 percent review of these DRGs is more resource in­
tensive, hence a lower ROI.

There ar a number of options HCFA may choose in selecting DRGs for tageted review. Iden­
tification of inappropriate payments wil be dictly tied to the type of DRGs selected and the
number of clais reviewed. Based on our study of discharges occurng frm October 1984
through March 1985, we recommend that HCFA target for review five problematic DRGs that
appeared in the entie sample and had the highest computed ROI values, and five problematic
DRGs that appear in the shott-stay subsample with the highest computed ROI values.
 Should HGFA implement this recommendation by requirng mandatory review of the DRGs
 listed in the table below, we project, based on FY 1987 data, that the program could realize net
 recoupments estimated at $183 millon , takng into consideration a corrsponding increase of
 approximately 15 percent in the PROs ' medical review workloads.



             INAPPROPRIATE PROGRAM PAYMENTS RESULTING FROM TARGETED DRG
                                       REVIEW

 DESCRIPTION                    DRG       # OF CLAIMS     INAPPROPR lATE      ROI      % OF PRO
                                           REVIEWED       PROGRAM          (AVERAGE   WORKLOAD
                                                          PAYMENTS          RETURN)

 Respiratory Neoplasms                      83, 254     $ 54 930, 989      $ 660
 Medical Back Problems          243        130, 545           115, 926       453
 Bone Cancer                    239         56, 330       48, 180, 445       855
 Bone Infection                 244                           131, 567       688
 Enlarged Prostate              348            439            178, 360       761               .43

 SUBTOTAL                                 297 212       $181 537 287       $ 611         13.

 Urinary Tract Infections      320*           669            901 708         849               53 ­
 Ear, Nose, Throat Diagnoses    73*           333            064, 809        950
 Acute Adjustment Reaction     425*           797            118, 105        085
 Anal Surgery                  158*           629            301 665         910
 Eye Disorders                  47*           377            250, 782      $ 947

 SUBTOTAL                                  26, 804      $ 24 637 069       $ 919

 TOTAL                                    324 016       $206, 174 356      $ 636         14.

  short-stay DRGs




                    ESTIMATED PROGRAM RECOUPMENTS BASED ON FY 1987 DATA

        FY 1987 PRO Expenditus                                              $154. 0 millon
        Increase in Medical Review Workload                                 x 15 percent
                                                                            $ 23. 1 million
        Estiated Progr Recoupments Based
        on Review of Above Cited DRGs                                       $206. 0 million
        Less Increase in Medical Review Workload                            - 23. 1 million
        Estimated Net Recoupments                                           $182. 9 millon

Another option HCFA might select would be mandatory review of those DRGs appearng
most often in our short-stay study as an unnecessar admssion. Review of 1- 3 day
hospitaizations for bronchitis and asthma (96) hear failure and shock (127), digestive disor­
ders (182), medical back problems (243) and chemotherapy (410) would yield approximately
$82 millon in inappropriate payments, and increase the PROs ' workload by approximately
$13. 9 millon. This would result in net recoupments of approximately $68. 1 milion.

Assuming a goo retur on investment resulting from the proposed pilot studies, HCFA may
want to consider increasing PRO budgets, allowing for more of this type of activity. However
if increasing the PROs ' budgets is not feasible, HCFA might  consider  relaxing PRO require­
ments to review all cases for appropriateness of admission , thus freeing up, to some extent,
    dical review resources that could be redicted toward targeted review of specifc DRGs.
Alternatively, HCFA may want to consider eliminating other less productive PRO activities in
order to allow PRO staf to focus more medical resources on these targeted reviews, thus keep­
ing PRO workloads constant.

COMMENTS

HCFA Comments And DIG Response

The HCFA responded to our drt report by indicating they would seriously consider the
DRGs suggested for inclusion in pilot projects to be developed. However, they were con­
cerned that we had not adequately considered the increase costs associated with medical
review of the targeted DRGs. Therefore, in the fInal report, we have included the dollar
amount of the 15 percent increase in medical review costs and reduced our program recoup­
ment estimates accordigly.



The full text of HCFA' s comments can be found in appendix F.
                                          APPENDIX A

 SAMPLING AND METHODOLOGY

 The National DRG Validation Stuy    used a stratified two-stage sampling design based on

 hospitals. The sample divided the population of hospitas meeting the study s eligibility

 criteria (outlined below) into thre   groups based on bed   size: less than 100 beds, 100 to 299

 beds; or 300 or more beds.


The ftrst stage used simple random sampling without replacement to select 80 hospitals within
each group for a total sample size of 240 hospitas. First, it included only acute care, short-
stay facilities. This test also excluded specialty institutions such as childrn s hospitals.
Second , as of October 1 , 1983, a waiver provision exempte New York , New Jersey, Mas­
sachusetts and Marland from PPS. Therefore, the sample excluded facilities in these states.
Third, the facilty had to have contrbuted data to the constrction of the initial relative
weights assigned to DRG categories at the sta of PPS. These initial relative weights derived
from a 20 percent sample of Medicare discharges from facilities paricipating in the progrm
in 1981. To be included in the sampling fre, a facility had to both contrbute discharges to
the constrction of the initial relative weights and to paricipate as a provider at the beginning
ofPPS, October 1    1983.

The effective universe of hospitals available for study numbered 4 913. Of the initial sample
of 240 hospitas , 1 facilty termnated its Medcare eligibilty between the sampling time
frame and the actual collection of medical records. The ftrst-stage sample therefore included
239 (4. 9 percent) randomly selected, short- term, acute car facilties eligible under the
Medicare program since at least 1981 and not located in a waiver State.

The second stage of the design employed systematic random sampling to select 30 Medicar
discharges from each of the 239 hospitals. The HCFA' s Bureau of Data Management and
Strtegy supplied a list of all fmal bils they received from the fiscal intermediares though
Apri 30 , 1985. Each bil represented one Par A Medcar discharge for the
                                                                              tie period
October 1 , 1984 to Marh 31 , 1985. If a facility had less than 30 discharges during the
applicable period, the design selected all its available Medicare discharges.

RECORD COLLECTION

In mid- 1986, OIG sent registere letters to the selected hospitals requesting copies of the com­
plete medical record for each of the sampled discharges. Admistrative subpoenas compelled
the paricipation of a few institutions. Of the 222 396 records available from the 239 hospi­
tals, the sample design reuested 7, 076 (3. 2 percent). The study ultimately reeived and
reviewed 7, 045 (99. 6 percent) medical records. The hospitals could not locate the remaining
31 records.
 MEDICAL REVIEW

 Registered nurses initialyscrened the medcal records for incidents relating to the ap­
propriateness of admssion , quality of care and prematur discharge. If the inadequacies were
found , the medical record was referred to a physician experienced in char review. Upon con­
firg     a case of unnecessar admssion , poor quality of care, or prematur discharge, the
physician dictated a narative summar describing the nature of the deficiencies and citing sup­
portng evidence from the patient char. This methodology parleled the process used in local
peer review and by the PROs. The reviewers had instrctions to ignore marginal problems or
cases involving honest differences in medical judgment about appropriate case management.

Medical experts reviewed records presenting specialty car issues. Physician panels convened
to decide dificult cases. The bulk ofreviewing physicians had appropriate board certfica­
tion , commttee experience and recent patient care responsibilty. An OIG physician reviewed
the clarty and consistency of each medcal reviewer s conclusions.

STATISTICAL ANALYSIS

Because of the two-stage sample design, this report evaluated its data by hospitals rather than
by discharges. It calculated proportions of events as the number of events over the total num­
ber of discharges reviewed within each bed size group.

Post-stratifcation analysis followed HCFA practices for classifying hospitas by their
demogrphic charcteristics--urban versus rual location and teaching status. Urban versus
rural status depended on whether the hospital' s location fell within the boundaes of a
                                                                                           stand­
ard metropolita ara as defined by the Census Burau. The HCFA considere a hospital to
have teaching status if it has an accredited resi ency program. Profit versus not-
                                                                                   for- profit
status was provided by the American Hospital Association s (AH) dictory which in
was furished to the AH by the hospitas.
                                                                                           tur

FISCAL PROJECTIONS

      Firt, projections   were made using the actual dollar   paid for the 1   254 Medicare
      patients in the 1- to 3- day subsample (derived from HCFA PATBILL fies).
     multiplied the number patient discharges in each bed size category by the average cost
     per discharge in bed size categories for a total in rounded figures. Calculations show the
     total dollar paid to the 1- to 3- day subsampled hospitals in the thee bed size categories.
     Small hospitals, for example, were paid $. 7 millon for 483 discharges at an average
     cost of $1 445.
   Admissions in 1-3 Day Subsample                     Small        Medium             Large
     (n = 1,254):

     # Patient Discharges                                    483            373            398
     Average Cost/ischarge                                   445            170           818
    Total Dollars (in milions)                              $0.        $0.             $1.12


Next, using the same mathematical approach , projections were made for the costs of 1- to
 day unnecessar admssions by the the bed size categories. For example
                                                                        , smal hospitas
were paid $120, 00 for 84 unnecessar admssions at an average cost of $1
                                                                                  442 per patient.




  Unnecessary Admissions               (n = 252):     Small         Medium            Large
   # Patient Discharges

   Average Cost/ischarge                                    442            110       $2, 787
   Total Dollars                                    $120,          $180,          $230,


      Dividing the dollars paid to hospitas for 1- to 3- day unnecessar admssions by the
      dollars paid for all 1- to 3- day admssions in the subsample by bed size category yields
      the 1- to 3- day     percentage of dollar spent on unnecessar admssions.




                                                      Small        Medium             Large
   Percent of Dollars for 1- 3     Day                      1.8            1.7            1.2
   Unnecessar Admssions


     We adjusted for the higher volume of discharges that occur in large hospitals, using FY
     1985 data. Summng the projections for each bed size category yields a total projected
     amount of nearly $411 millon paid by the Medcar program for 1- to 3- day
     unnecessar admssions.

PPS 1- 3 Day Admissions (FY 1985)              Small        Medium           Large
 # Discharges (in Millons)                        1.52

 Multiplied by Average Cost!                                  $3. 222         $3. 999
       3 Day Discharge

  ields Dollars Paid                          $3, 323       $10, 020       $14 596
     (in Millions)

Times Percentage of Sample                        1.8             1.7             1.2
   Dollars for 1- 3 Day
   Unnecessar Admssions

Yields Dollars for 1- 3 Day                      60.            168.         182.3
    Unnecessar Admssions
     (in Millons)

Total Dollars (in Millons)
    . Spent on Unnecessar Admssions:                                         $411.1

  Finally, we estimated Medicar dollars which would have been spent for the care of 1­
  to 3- day unnecessar admssions in other medical settings. Analyzing a subsample of
  the740 unnecessar admssions identified in the enti OIG sample, we compared
  actual acute car costs with an estimate of costs for specific medical treatment in an
  alternative setting. Projections were made to the universe for patients with short
  hospitaizations requirng medcal attention.

                                  Small       Medium            Large            Total
Hospita Costs For 1- 3             $60.          $168.          $182.3          $411.1
 Day Unnecessar
 Admssions (in Millons)

Costs for 1- 3
            Day                     27.            79.3            87.           193.
 Patient Cae in Other
 Medcal Settings (in Milions)

Difference Between Acute           $33.           $89.           $94.           $217.3
 and Non- Acute Medcal
 Settings for 1- 3 Day
 Hospitaizations (in Millions)
                                                              APPENDIX B

                                          HOSPITAL AND DISCHARGE CHARACTERISTICS
CHARACTERISTICS                             HOSPITALS                                             DISCHARGES
            URBANI           ENTIRE       3 DAY      UNNECESSARY   CODING ERROR   OIG           3 DAY       UNNECESSARY   CODING ERROR
TEACHING    RURAL    BED     SAMPLE      SAMPLE      ADMISSION     SAMPLE         SAMPLE       SAMPLE       ADMISSION     SAMPLE
STATUS      STATUS   SIZE    HOSPITALS   HOSPITALS   SAMPLE        HOSPITALS      DISCHARGES   DISCHARGES   SAMPLE        DISCHARGES
                                                     HOSPITALS                                              DISCHARGES
TEACH-     URBAN
ING
                      100­
                      299                                                            449
                     300+                                                           1345         232
SUBTOTAL                                                                            1853         317

NONI       URBAN                                                                    393
TEACH­
ING                  100-                                                           1226         187
                     299

                     300+                                                           898          139
SUBTOTAL                                                                           2517          396

NONI       RURAL                                                                   1821          400
 TEACH­
ING                  100-                                                           712          114
                     299

                     300+                                                           142
SUBTOTAL                                                                           2675          541                        116

TOTAL                          239         237         150          129            7045         1254          252           229
                                                        (#)      (%)     (#)       (%)     (#)      (%)




                                           APPENDIX C

                            DISCHARGE FREQUENCY BY MDC

 MAJOR DIAGNOSTIC CATEGORY (MDC)                        ENTIRE              3 DAY        UNNECESSARY
 Code and Definition                                    SAMPLE           SUBSAMPLE        ADMISSIONS
                                                                                          in 1-   3 DAY
                                                                                          SUBSAMPLE




  01: Diseses & Disorders of the Nervous System        601 (8. 53)       112 ( 8. 93)      12 ( 4. 76)
  02: Diseses & Disorders of the Eye	                  106 (1.50)         75 ( 5. 98)      59 (23.41)
  03: Diseses & Disorders of the Ea, Nose & That        129 (1.83)        40 ( 3. 19)      12 ( 4. 76)
. 04: Dises & Disorders of the Respiratory System      1091 (15.49)      106 ( 8.45)       14 ( 5. 56)
  05: Diseses & Disorders of the Circulatory System    166 (23.56)      337 (26. 87)       19 ( 7. 54)
  06: Diseses & Disorders of the Digestive System      870 (12. 35)     164 (13. 08)       35 (13. 89)
07: Disese & Disorders of the Hepatobilia              197 (2. 80)       22 ( 1.75)         3 ( 1.9)
   System & Pancreas
08: Diseses & Disrders of the Musculoskeleta           628 (8. 91)       86 (6. 86)        22 ( 8. 73)
   System & Connective Tissue
09: Diseses & Disorders of the Ski	                     180 (2. 56)      29 (2.31)         10 ( 3. 97)
    Subcutaeous Tissue & Breast
10: Endocrie, Nutrtional & Metabolic Disees            342 (4. 85)       46 (3. 67)         8 ( 3. 17)
   & Disorders
11: Diseass & Disorders of the Kidney and Uriar        346 (4. 91)       62 (4. 94)        17 ( 6. 75)
    Tract
12: Diseses & Disorders of the Mae Reprouctive         185 (2. 63)       30 (2.39)         10 ( 3. 97)
    System
13: Diseses & Disorders of the Female Reproductive      77 (1. 09)       14 ( 1.2)          6 ( 2.38)

   System
14: Pregnancy, Child Bir & the Puerprium
15: Newborns & Other Neonates with Conditions	            1 (0. 01)

   Orginating in the Perinata Period

16: Bloo, Bloo Forming Organs -                         75 (1.06         18 ( 1.44)         3 ( 1.9)

    Immunologica Diss & Disorders

17: Myeloproliferative Diss & Poorly                   122 (1.73)              (3. 27)      6 ( 2. 38)

   Differentited Neoplams

18: Infectious & Paritic   Diss                        112 (1.59)        13 ( 1.04)         3 ( 1.9)
   (Systemic or Unspeified Sites)
19: Menta Disese & Disrders	                           104 (1.48)        19 ( 1.52)        5 ( 1.98)
20: Substae Use & Substace                              30 (0.43)         3 (0. 24)
    Induce Organic Menta Disrders
21: Injur, Poisoning & Toxic                                  (1.21)           ( 1.67)    4 ( 1.9)
   Effects of Drgs
22: Bums	                                                5 (0. 07)
23: Factors influencing Heath Status	                   33 (0.47)              (0. 88)     3 ( 1.9)
    & Other Contacts with Heath Services
   NOT SPECIFD (DRG 468)                                66 (0. 94)        5 (0.40)         1 ( 0.40)
   TOTAL                                              7045             1254              252
                                       APPENDIX D


     INAPPROPRIATE PROGRAM PAYMENTS, RETURN ON INVESTMENT AND

               INCREASE IN MEDICAL REVIEW WORKLOADS


The following table displays the DRGs identifed in our unnecessar admssion and
                                                                                    short­
hosp,italization studies as being the most problematic in terms of unnecessar admssions.
Using HCFA' s FY 1987 payment data and DRG unnecessar admssion rates identified in our
studies, we have calculated, for each DRG and for short hospitalizations coded with that
DRG , the estiated inappropriate progr payments that could be identified from
                                                                                  tageted
reviews. In addition , we have calculated the ROI in terms of inappropriate payments per
claim reviewed.

The HCFA has indicated that on the average, PROs review approximately 25 percent of all
claims submitted for payment under PPS. Therefore, in FY 1987 , they reviewed approximate­
ly 2. 2 millon claims for appropriateness of hospita
                                                     admssion (8, 934 149 clais submitted
times 25 percent). Using this figur , we computed the increase in workload that would result
from target review of these DRGs.

For instance, as displayed in the following table, should HCFA madate review of all DRG
425s paid under PPS in FY 1987, PROs would have to review 14 240 claims. Assuming an
unnecessar admssion rate of 46. 667 percent, we would expect them to identiy 6,
                                                                                 645 un­
necessar admssions. At an average cost of $1 446 per hospitalization
                                                                     , these inappropriate ad­
missions cost the progr approximately $9, 60, 221. For each DRG 425 reviewed, the
program could realize recoupments of $675. Targeted review of DRG 425 would increase
                                                                                          the
PROs ' PPS workload by approximately . 65 pe cent.

Should targeted review of only DRG 425s with corrsponding hospitaizations of 1
                                                                                  , 2 or 3
days be conducted, 3, 797 claims would be reviewed. Assuming an inappropriate admission
rate of 75 percent, 2, 848 of these would be identied as inappropriate admissions for a tota
cost of $4 118, 105 to the program. We could expect to receive a retu in misspent dollars of
   085 per short-stay DRG 425 clai reviewed. The PROs ' PPS workload would be negli­
gibly increased. (3, 797 DRG 425 clais / 2 200, 00 PRO workload = . 0017 or .
                                                                                17 percent.)
        --------..-.
           ,,,:))	                    ........................                .......-..-----..--                ------ ..--..........
                                                                                                                                 ,.--- ..--                 .. -..................
                                                                                                                                                            ...........                             .. --........ --................ ---........
                                                                                                                                                                                                    ........................                                   ---.....-..--
                                                                                                                                                                                                                                                               ..........




                                                                             INAPPROPRIATE PROGRAM PAYMENTS PER DRG FOR FY 1987
                                                                                      ALL DRGs VERSUS SHORT-STAY DRGs


                                                                                                                                                                                                   SIII -STA' ORG

                                       ALL DIG


                                                                                                                                                                                                                                     I A IE
                                                                             INAPPOP I A                                                                                                                            II8
                                                                                                                                                             , IIIT                                    , UA

                                       'OfUA                     AVERAGE        PtM	
                                         CLAIMS                    COT          'AYMNTS                          I Of           OIG           I SMOT            ITA"                 EII             CLAI..               'AYMNTS                              I Of Pl
          1987           nlOl
                                                                                                                 WOKlOA         WEIGHT        STA'            2. '0                  II IE          11 . '2                 5 . 1)                 101         UDLOA
DIG     UIIVEIlSE        RAIE            2 . 3                   I'R CLAI"       4 . 5              111


                                                                                                          1)2           0656          6241          23970           )4591                                  1977                Z97'                                    0'51
                                                '28'                '48.           '90579
                                                                                    9U8255                '68           025           764Z     O.                   2'79'            O. '7650
 210	            400          08'82               46'5              20.
                                                                                                                        0014          4187          7500              2)77                                 877                  22578                                  0011
                  169         7500                Z377               M7.            Z25078                710
                                                                                                                        0'36          450           29'66             8753             51143                                    4415)1                   501           000
                              37500             11 254                              99)6
                                                                    030.             48n914               317           0070                        098               '46                                                                                              007
            15, 391           Z)I'O               )65
                                                                                                          594           00)9       605              6200              5n3                                                       506	                     950           004
                  53Z         37500               3200              '5M.             50680
                                                                                                                                 1. '25                               8)25              2871                879                 787'66                            O.
                 , 254                           '665'              329.           549J0                                0378                        '00
                                                                                                                                      0768     O. 'ZJ07             13650                                    153                2512                              O.
           110                100                "09'               )0.            nJ66JO                 JOI           0504
                                                                                                                                      1657       07407              Z4269                                  9))4               281227                 11M               0110
           327 645            0398               0070               Jl05.          405'602                '24      O. '48
                                                                                                                        091 I                  O.                   23505               2)1'0               5591              1 197'081               509              0'01
           200 , J6      o.   ,,,n               22)87              21)9.          478Z                   239	                                      "n,
                                                                                                          128           Z'53                   O. '00'              47610                  15)8             n25               ZO678                   426              0216
127        Ion.               0439               21974              2767.          60Jl27
                                                                                                                                      nD2           4400             150'0              Z62n                J93                 748 70                499
157               114         2l1                 9552              '89.            18'2944               531     . 0. 0'55
                                                                                                          404           00'           55"           400                                    7500             znz                 3)01665               910              0016
158                           3')40               J025              '21).            )69250
                                                 '2690              238.            J0253207              Z11           06n           9On           1504             Z15n                  11764            25)8                609876
'74        '10                0850
                                                                                                          Z66       O. 'Z24           60JZ          Z12Z4            57'58                 J0769          1751                Z490                       436           0260
182        269 , J06          18776              50565              1416.           7'599'
                                                                                    10528143              318           0150          5104          4Z4Z4            '404            O. 1428                z03                 Z'0551)                  '50
18J               057         JOJ03              '00'7              '05'.
                                                                                                          855           0256          9268                            507                                   '252                JZ",41                   64Z           003
2J9               J'O         3,n3               18776              2566.           4818045
                                                                                                          453           0593          680      O.   '2)8             ''In                  3U14             5176                1636                     517           0074
210               545         300                39280              '505.           59115926
                                                                                                                                                                       6500                4Z8              Z78                  4549656                               OOJO
2'"               6410        42'05               7429              16n.            1201567	                                          6742          )6Z
                                                                    1877.           3977J8                419           04JZ          7454          09"                91,.                                                      44,9))9	                              003
                  967         22314              2"91
                                                                                                          '54           0932          8271     O.                    3199            O. '4815               4741               '0529                                   0145
           205 OJ8            069)6               1422'             2224.           Jl62                                                            '56
                                                                                    M30828                              070           866           07476            "66                   375              075                 99'7'                    849           003
320        156 072       O. '0280                 '604              2263.
                                                                                      742'574             45'           0075          6503     O.                      5979                375              U4Z                  J1'081                  621           001
325                           2nn                  4484             1655.
                                                                                                                                                                       667                 4Z8                                   4)onD3                  652           OOJO
)48                           500                  4720             '52' .            7178                761           003           627
                                                                                                          250           0316          7151          2500             ,7J                                    )4n                  65Z2O'Z                 316           0079
395              457          n3n                  9261             1878.           ,n9198
                                                                                                          165           05'5          428           5)4              6049             O.   '9)             11716               159968                    264           0275
100         113, 286      O. '2069                '367Z              '365.          '865
                                                                                                          675           005                    O.   Z66                3797	                                                     4118105                 101           0017
425              240          4667                  665              1446.            962Z'

            28261 06                            J6 70                              705555                           1. 286                                         478'29                                115077              2140)4319                                 z,n
l01AL
        s===========                  :8S==2:=S:8==:Z                         ....a.........                     ........z..:a8%.....
                                                 APPENDIX E


                                        DISCHARGE DESTINATIONS

                       ENTIRE SAMPLE                           DAY SUBSAMPLE

                                          Short                  Day             Day           3- Day
DISCHARGE              Complete            Stay                 Stays           Stays          Stays
DESTINATIONS            Sample          Subsample


  Home                  071                946        75.4         34.    276     70.2   644       81.9
  Another Acute         158
  Hospital
  Skiled Nursing
        131      1.9                  0.2                                             0.4
  F acil ty


4- Intennediate Care    670                            4.3          1.3            2.3
  Facilty

  0ther Inst. 
          119      1.7                  1.7
  Home Health           390                            1.6                         1.5                 1.8
 Agency
 Left Against                     0.4                  1.0          1.3                             0.4
 Medical Advice
 Expired                442       6.3      147        11.7         52.            15.
 Stil a Patient

                                                                                                    0.3

TOTAL                   045       100     254         100          100    393     100    786       100
APPENDIX F

                                                                    Heelth Car.
       DEPARTMENT OF HEALTH" HUMAN SUVICES


3 FEB

                                                                    FinanCing Administration




                                            l9T
                                                                    Memorandum
Date
       William l. Roper

Fro \) Administrator


       OIG Draft Report:     National DRG Validation Review - Short Hospitalizations

       OAI- 05- 88- 00730

       The Inspector General

       Offi ce of the Secretary

       We have reviewed the OIG draft report which examines the extent of short
       hospital stays, whether short stays are appropri ate and whether short-stay
       patients receive an adequate . quality . of. care.

       We generally agree with the OIG recomend4tions regarding pilot studies.
       As we stated in our previous response on this subject, we believe that
       pilot projects in this area should be undertaken. However , these pilot
       projects have unfortunately been_ delayed due to other priorities. We will
       seriously consider the DRGs . sug.ges.ted.. by. the OIG for inclusion in our
       pi lot proj   ,ts    en tW   I.re. Oeyel1&e..
       The report states that the program could real ize recoupments estimated at
       $206 million , with a corresponding increase of approximately 15 percent in
       the PROs ' medical review workloads. . The OIG' s analysis does not
       adequately consider the costs that would be incurred in accomplishing the
       necessary increased review of the short-stay admissions. Therefore, we
       believe the savings estimate in the report is inflated.

       In closing, we want to mention as we have in our responses to several
       previous reports, that the OIG has once again identified . coding" problems
       that were actually physician documentation problems. A number of the DRGs
       identified in this report with coding problems resulted in actuality from
       inaccurate or vague physician documentation. We have held training
       sessions across the country for all PROs and instructed them to educate
       hospitals in correct coding principles. Additionally, outside groups such
       as the Amrican Medical Record Association and the American Hospital
       Association have put considerable emphasis on correct coding and conducted
       training and published numerous articles to educate coders.

       Thank you for giving us the opportunity to comment on this draft      report.
